TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  A Self-Assistance Option Would Reduce
                Burden and Costs Associated With Resolving
                     Rejected Electronic Tax Returns



                                           June 17, 2008

                              Reference Number: 2008-40-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 17, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – A Self-Assistance Option Would Reduce Burden
                                 and Costs Associated With Resolving Rejected Electronic Tax Returns
                                 (Audit # 200840029)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) can improve its service to customers1 when notifying them that it has rejected an
 electronically filed (e-filed) tax return. This audit was initiated due to concerns raised by
 representatives from the American Institute of Certified Public Accountants about the assistance
 provided by the IRS when an e-filed tax return is rejected.

 Impact on the Taxpayer
 The IRS rejected more than 6.8 million (8.5 percent) of the nearly 80 million e-filed tax returns it
 received for Tax Year 2006. More than 5.4 million of the approximately 6.8 million returns
 were corrected and successfully e-filed. The current methods through which a customer with
 electronic filing (e-file) reject errors receives assistance from the IRS 1) create burden for the
 customer and unnecessary expenses for the IRS and 2) result in the IRS maintaining redundant
 information in multiple systems. Providing a self-assistance option would help the IRS ensure
 that it continues to deliver a high level of service and support to customers who participate in
 e-file.




 1
     See Appendix V for a glossary of terms.
                      A Self-Assistance Option Would Reduce Burden and Costs
                     Associated With Resolving Rejected Electronic Tax Returns




Synopsis
For Tax Year 2006, the IRS received nearly 80 million e-filed tax returns. E-filed returns benefit
both the IRS and taxpayers because their processing costs and error rates are lower than those for
paper returns. To help achieve a high level of accuracy, the IRS’ e-file system has automated,
upfront tax return validity checks. The IRS rejects e-filed tax returns that do not pass its validity
checks and sends the electronic files back to the customers, who are responsible for correcting
the reject conditions and resubmitting the tax returns.
The information provided to a customer in the e-file acknowledgement file does not by itself
enable the customer to address the reject condition(s). Customers are required to review
publications and/or contact the IRS to obtain a detailed description of what caused the reject
conditions and, more importantly, how to correct the conditions.
The IRS’ current methods for assisting customers with e-file reject conditions create burden for
the customers and unnecessary expenses for the IRS,
including costs for providing toll-free telephone assistance      A self-assistance option would
and maintaining redundant systems. The IRS noted that              help to reduce the number of
each system was developed for a different purpose and for          telephone  calls, eliminate the
a different type of user. In Calendar Year 2007, the IRS          costs of maintaining   redundant
                                                                 information  in multiple  systems,
spent more than $3 million2 providing customers with              and improve customer service.
telephone assistance to address e-file reject conditions.
Requiring customers to call the IRS to obtain assistance in
correcting reject conditions increased the burden for the 154,986 customers who had to call the
IRS for assistance with rejected e-filed tax returns in Calendar Year 2007.
A self-assistance option could be created. The IRS provided us with documentation outlining a
system that would give customers self-assistance options. The original request date for
implementation was August 2005. However, resource constraints have prevented the system’s
implementation. The IRS currently has a system that could be modified to include information
on how to resolve the reject conditions, and this system could be placed on IRS.gov (the public
IRS web site) as a self-assistance option. Updates to this system could provide the IRS with a
short-term solution for providing self-assistance.




2
 Amount spent was calculated by multiplying 154,986 customers assisted in Calendar Year 2007 by the $19.46 cost
per call.
                                                                                                              2
                   A Self-Assistance Option Would Reduce Burden and Costs
                  Associated With Resolving Rejected Electronic Tax Returns



The IRS has already taken action in response to our concerns by adding to IRS.gov a new option
that lists common reject codes along with suggested solutions. This is a first step toward
providing a complete electronic self-assistance option for resolving rejected e-filed tax returns.
For the long term, the IRS should focus on providing customers with both a description of the
reject condition and information on how to resolve it by including a description of the reject
                                          condition with steps to correct the error in the e-file
         An existing system and           acknowledgement file. This would provide customers
   implementation of the Modernized       with one-stop self-assistance. The IRS has been moving
     E-file Program provide the IRS       to a new electronic platform to process e-filed tax
        with opportunities to give        returns, referred to as the Modernized E-file Program.
      customers a self-assistance
                 option.                  IRS officials noted that expansion of the Modernized
                                          E-file Program to include individual tax returns will
                                          begin in Fiscal Year 2009 and will be completed by
Fiscal Year 2011. The e-file acknowledgment file that will be generated from the Modernized
E-file Program has the possibility of including a description of the reject conditions and
information as to how to address them.

Recommendations
The Commissioner, Wage and Investment Division, should 1) develop a self-assistance option on
IRS.gov that allows customers to obtain detailed explanations of e-file reject conditions,
including the steps to resolve them, and 2) develop a business case on the feasibility of providing
in the e-file acknowledgement file the information that would allow customers to resolve their
reject conditions once individual tax returns are transitioned to the Modernized E-file Program.

Response
IRS management agreed in part with one of our recommendations and disagreed with the other
one. For 13 e-file error reject codes, a self-assistance option was added to IRS.gov, which
provides descriptions and suggested solutions. These commonly issued error reject codes
accounted for 78 percent of the 10.2 million error reject codes issued thus far in 2008 and
81 percent of the 9.9 million error reject codes issued during 2007. IRS management will also
study the feasibility of adding a more comprehensive self-assistance option to IRS.gov. This
study will involve consideration of altering an existing system and/or coordinating with tax
software development companies that currently offer a self-assistance option to their customers
as described in the recommendation.
While IRS management agreed that the e-file acknowledgement file should provide information
that would allow customers to resolve their reject conditions, it does not agree that a business
case to determine the feasibility of providing this functionality is necessary. As the Form 1040

                                                                                                   3
                   A Self-Assistance Option Would Reduce Burden and Costs
                  Associated With Resolving Rejected Electronic Tax Returns



Legacy E-file System transitions to the Modernized E-file Program, the reject codes will be
developed in the same fashion as the current Modernized E-file Program form types. This
transition is scheduled for implementation by September 2009. The Modernized E-file Program
provides customers with reject codes written in plain English and contains a clear and concise
explanation of the reject conditions. Management’s complete response to the draft report is
included as Appendix VII.

Office of Audit Comment
Although we agree that the Modernized E-file Program will provide customers with explanations
of error reject codes, we disagree with the IRS’ decision to not perform a study as recommended.
The study would assess the feasibility of also providing in the Modernized E-file Program
acknowledgement file steps for customers to follow when resolving their reject conditions. It is
our position that error explanations alone, no matter how clear and concise, do not consistently
communicate the steps required to correct the error(s).
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                 4
                          A Self-Assistance Option Would Reduce Burden and Costs
                         Associated With Resolving Rejected Electronic Tax Returns




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          A Self-Assistance Option to Resolve Rejected Electronic Tax
          Returns Would Reduce Taxpayer Burden and Save Resources ...................Page 4
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Glossary of Terms .................................................................Page 17
          Appendix VI – Customers Who Might Need to Resolve Rejected
                       Electronic Tax Returns .........................................................Page 19
          Appendix VII – Management’s Response to the Draft Report.....................Page 20
                   A Self-Assistance Option Would Reduce Burden and Costs
                  Associated With Resolving Rejected Electronic Tax Returns




                                 Abbreviations

e-filed; e-file           Electronically filed; electronic filing
ERO                       Electronic Return Originators
IRS                       Internal Revenue Service
                     A Self-Assistance Option Would Reduce Burden and Costs
                    Associated With Resolving Rejected Electronic Tax Returns




                                          Background

For Tax Year 2006, the Internal Revenue Service (IRS) received nearly 80 million electronically
filed (e-filed) tax returns. This represents more than
57 percent of the 139 million individually filed tax returns and
a 9 percent increase over the Tax Year 2005 volume of e-filed
returns. More than 57 million of the e-filed tax returns were
filed by a preparer,1 with the remaining 23 million filed by
online filers (individuals who prepared and e-filed their own tax returns). The IRS projects that
more than 66 percent of all individual Tax Year 2010 tax returns will be e-filed.
E-filed tax returns benefit the IRS and taxpayers because both processing costs and error rates
are lower than those for paper returns.
    •   Processing costs: $0.62 for an e-filed tax return versus $2.59 for a paper tax return.2
    •   Error rates: 0.1 percent for e-filed tax returns versus 11.4 percent for manually prepared
        paper returns and 2.2 percent for computer-prepared paper returns.
To help achieve this level of accuracy, the IRS’ electronic filing (e-file) system has automated,
                                   upfront tax return validity checks that look for more than
     The IRS e-file validation     600 possible errors. For example, validity checks are
    process checks for more        performed on the taxpayer name, address, Social Security
    than 600 possible errors.      Number, and year of birth. Errors include using incorrect
  Those e-filed tax returns not    Social Security Numbers of dependents, incorrect birthdates,
     passing the checks are
  rejected and sent back to the    numbers in an alphanumeric field, and invalid zip codes.
    customers for correction.      Unlike a paper tax return, an e-filed return is not accepted as
                                   filed until the validity check confirms the tax return is free of
                                   errors.
The IRS rejects an e-filed tax return that does not pass the validity checks and sends the customer
an electronic notification, referred to as an “e-file acknowledgement file,” that lists the error(s)
by the code(s) that caused the tax return to reject. A reject code is a unique numeric reference
assigned to each of the more than 600 possible errors that will cause the IRS to reject (i.e., not
accept for processing) an e-filed tax return. The customer is responsible for correcting the
error(s). Once notified of an error, the customer has to correct the tax return and resubmit it via
e-file, submit it by paper tax return, or not file it at all. More than 6.8 million (8.5 percent) of the

1
 See Appendix V for a glossary of terms.
2
 National Taxpayer Advocate 2004 Annual Report to Congress referenced Internal Revenue Manual Exhibit 3.30,
Cost Estimate Reference, Exhibit 3.30.10-39 (Rev. 11-01-2003).
                                                                                                     Page 1
                         A Self-Assistance Option Would Reduce Burden and Costs
                        Associated With Resolving Rejected Electronic Tax Returns



nearly 80 million e-filed tax returns for Tax Year 2006 were rejected. More than 5.4 million of
the approximately 6.8 million tax returns were corrected and successfully e-filed. Figure 1
presents a breakdown of Tax Year 2006 rejected e-filed tax returns.
         Figure 1: Tax Year 2006 Rejected E-Filed Tax Returns and Filing Method
                     Subsequently Used to Resubmit the Tax Return

           Tax Returns Rejected and
           Successfully E-filed                                  5,460,763                            80%
                              Preparer                                         3,156,124 (58%)
                              Online Filer                                     2,304,639 (42%)
           Tax Returns Rejected and Ultimately
           Filed via Paper                                        806,839                             12%
                              Preparer                                            392,651 (49%)
                              Online Filer                                        414,188 (51%)

           Tax Returns Rejected and Never Filed                   593,842                              9%

              Total E-filed Tax Returns Rejected                 6,861,444                           100%3
          Source: Our analysis of Tax Year 2006 e-filed tax returns on the IRS Individual Return Transaction File.

Correcting a reject condition(s) can require multiple resubmissions of the e-filed tax return.
Figure 2 provides a breakdown of the number of times rejected tax returns were rejected.




3
    Due to rounding, percentages do not add up to 100 percent.
                                                                                                             Page 2
                     A Self-Assistance Option Would Reduce Burden and Costs
                    Associated With Resolving Rejected Electronic Tax Returns



           Figure 2: Number of Times Each Rejected E-filed Tax Year 2006
                               Return Was Rejected

     Number of Times a Tax Return Was Rejected                                 Total         Percentage

     Once                                                                     5,399,487           79%
     Twice                                                                      969,569           14%
     Three Times                                                                291,308           4%
     Four Times                                                                 108,580           2%
     Five or More Times                                                          92,500           1%

     Total Tax Year 2006 Returns Rejected From E-file                         6,861,444          100%
   Source: Our analysis of Tax Year 2006 e-filed tax returns on the Individual Return Transaction File.

Members of the American Institute of Certified Public Accountants raised concerns about the
assistance provided by the IRS when an e-filed tax return is rejected. Although use of e-file
allows tax practitioners to prepare and submit a tax return in an electronic environment, if the tax
return is rejected, they are required to manually research publications and/or contact the IRS by
telephone to obtain information on how to correct the reject condition(s). They noted that the
manual steps required to resolve the problem are often burdensome. As a result, they sometimes
simply abandon e-file and file a paper tax return.
This review was performed in the Electronic Products and Services Support function, which is
under the Customer Account Services organization located in the Wage and Investment Division
Headquarters in Atlanta, Georgia, and at the Chief Information Officer E-file Systems office and
Portal Program Management office in New Carrollton, Maryland, during the period
October 2007 through March 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                                          Page 3
                         A Self-Assistance Option Would Reduce Burden and Costs
                        Associated With Resolving Rejected Electronic Tax Returns




                                        Results of Review

A Self-Assistance Option to Resolve Rejected Electronic Tax Returns
Would Reduce Taxpayer Burden and Save Resources
When a paper tax return contains an error, the IRS sends a notice to the customer explaining the
error and how to correct it. However, when an e-filed tax return contains an error, the e-file
acknowledgement file sent to the customer does not provide a solution for correcting the error.
If the customer owns tax preparation software that does not provide information needed to
address the error,4 the customer has to review an IRS publication, research IRS.gov (the public
IRS web site), and/or call an IRS toll-free telephone assistance line to obtain a detailed
description of what caused the reject condition and how to correct it.
Figure 3 shows the self-assistance options the IRS currently offers customers. None of the
options provide the customer with a description of how to correct an error. For that, the
customer must call an IRS toll-free telephone assistance line.
                              Figure 3: Self-Assistance Options That the
                                  IRS Currently Offers to Customers

                                                                              Describes        Describes How
                                                                                Reject        to Correct Reject
                                                                              Condition?         Condition?
     Available Resources          Description                                Yes      No       Yes        No
     E-file                       Through electronic notification sent to
     Acknowledgement File         the preparer, provides the specific
                                                                                       X5                  X
     (Legacy System)              reject code(s) relating to the error(s)
                                  on the tax return.
     Publication 13466            Provides a list of numeric reject codes
                                  and descriptions of errors.                 X                            X
     IRS.gov                      Provides a list of reject codes and
                                  descriptions that can be scrolled           X                            X
                                  through.
    Source: Our research and interviews with IRS officials.


4
  Companies that develop tax preparation software might include a detailed description of the reject conditions
and/or an explanation as to how customers can address the conditions. The information provided varies. There are
67 software packages approved by the IRS for use in its e-file Program.
5
  Although no explanation of the error that caused the tax return to reject is provided, the numeric reject error
code(s) is listed on the e-file acknowledgement file.
6
  Electronic Return File Specifications for Individual Income Tax Returns (Publication 1346).
                                                                                                          Page 4
                    A Self-Assistance Option Would Reduce Burden and Costs
                   Associated With Resolving Rejected Electronic Tax Returns



Although the IRS aggressively promotes participation in its E-file Program, it does not give
customers the ability to work in an electronic environment to resolve e-file reject conditions.
Putting an application on IRS.gov and ultimately including a description of the reject condition
with steps to correct the error in the e-file acknowledgement file would provide customers with
one-stop self-assistance. The current methods through which a customer receives assistance
create burden for the customer and unnecessary expenses for the IRS, including costs for
providing toll-free telephone assistance and maintaining redundant information in multiple
systems.

A self-assistance option to resolve errors would reduce customer burden
The IRS continues to make significant strides in offering self-assistance
service via electronic channels. One example is the popular
self-assistance application “Where’s My Refund,” which is available on
IRS.gov and allows taxpayers to research the status of their tax refunds.
The taxpayer enters some information specific to himself or herself and
the tax return, and IRS.gov provides the status of the tax refund.
However, a similar self-assistance option is not available for customers
who need help with e-file reject conditions. The example below outlines the process a customer
must currently follow to correct an error(s) on an e-filed tax return:
(1) The customer e-files the tax return.
(2) The IRS sends the e-filed tax return through its validation process. If the IRS detects an error
    in one or more items, it rejects the tax return.
(3) The IRS sends the customer an e-file acknowledgement file with a reject code for each error.
(4) The customer researches Publication 1346 or IRS.gov to obtain a description of the reject
    code(s).
(5) The customer calls the IRS to obtain the information necessary to correct the reject
    condition(s).
(6) The IRS telephone assistor researches the reject code(s) and attempts to help the customer
    correct the error(s) so the tax return can be resubmitted via e-file and successfully processed.
Currently, the IRS has three telephone lines customers can call to get an explanation of the
e-file reject codes:
   •   E-Help Desk (1-866-255-0654): Available to authorized E-file Providers. The
       E-Help Desk Program provides assistance to users of IRS electronic products and
       services.



                                                                                               Page 5
                       A Self-Assistance Option Would Reduce Burden and Costs
                      Associated With Resolving Rejected Electronic Tax Returns



     •   Practitioner Priority Service (1-866-860-4259): Available to tax practitioners
         (i.e., lawyers, accountants, enrolled agents, and enrolled actuaries). Practitioners provide
         fee-based assisted return preparation support, forms and publications distribution, tax law
         guidance, and account assistance. Practitioners can legally represent taxpayers.
         Therefore, they can serve as a conduit to the IRS on account-related matters.
     •   Toll-Free Customer Service (1-800-829-1040): Available to online and other filers.
         For Tax Year 2006, as of May 2007, there were 22,172,000 online filers.
As Figure 4 shows, at least 154,986 customers contacted the IRS for assistance with rejected
e-filed tax returns in Calendar Year 2007. Over 5 years, the number of affected customers could
reach 774,930.7
                          Figure 4: Calendar Years 2005-2007 Volumes
                              Associated With Telephone Options

                                                          Volume by Calendar Year
         Telephone Option
                                               2005                        2006                    2007

     E-Help Desk8                             38,568                      36,681                  43,574
     Practitioner Priority
                                          Not Available                Not Available             111,412
     Service
     Toll-Free Customer
                                          Not Available                Not Available          Not Available
     Service
     Totals                                   38,568                      36,681                 154,986
    Source: The E-Help Desk Line data were obtained from the E-Help Support System Database. The Practitioner
    Priority Service Program data were obtained from the Tennessee Computing Center – Web Server Statistics
    Report.

A self-assistance option would save IRS resources and improve customer service
Providing a self-assistance option that provides solutions to correct the errors causing the e-file
rejects would help ensure that the IRS continues to deliver a high level of service and support to
customers who participate in e-file. Such an option would help reduce the number of telephone
calls made to the various IRS toll-free telephone lines to correct errors on rejected e-filed tax
returns, eliminate the costs of maintaining redundant information in multiple systems currently
used by telephone assistors, and improve customer service.



7
 See Appendix IV for details.
8
 The volume of calls reported as E-Help Desk assisted has been reduced to eliminate calls associated with a reject
condition that according to IRS officials requires the customer to contact the IRS regardless of whether or not a
self-assistance option existed.
                                                                                                            Page 6
                      A Self-Assistance Option Would Reduce Burden and Costs
                     Associated With Resolving Rejected Electronic Tax Returns



Fewer calls to the various toll-free telephone lines would be necessary
The IRS estimated that the cost for a toll-free telephone-assisted contact was $19.46 for
Fiscal Year 2005.9 It states that this is a conservative estimate and does not include all costs,
such as upgrades to routing equipment, costs to maintain equipment, and headquarters support.
In Calendar Year 2007, the IRS spent more than $3 million10 to provide customers with
telephone assistance to resolve e-file reject conditions. This includes only those calls to the
E-file Help Desk and the Practitioner Priority Service Lines. The IRS does not track the number
of calls about e-file reject codes made to its Toll-Free Customer Service Line.
Information included in multiple systems could be eliminated, reducing costs and
inconsistencies
IRS assistors can use four different systems, containing similar information, when resolving
e-file reject errors. Figure 5 contains a list and descriptions of those systems. The IRS noted that
each system was developed for a different purpose and for a different type of user.
            Figure 5: Automated Systems Available for Use by IRS Assistors

                                                                                Describes       Describes How to
                                                                                  Reject         Correct Reject
                                                                                Condition?         Condition?

    Available Resources            Description                                  Yes      No       Yes        No
    Automated                      Generates a detailed description of the
    Publication 1346 System        error when assistors enter a reject           X                           X
                                   code.
    E-Help Solutions System        Generates a solution when assistors
                                   choose from the top 11 reject                 X                X
                                   conditions.
    Electronic Automated           Generates a detailed description of the
    Retrieval System               error when assistors select the reject        X                           X
                                   code for each specific tax return.
    JEEDA System                   Generates a detailed description of the
                                   error when assistors enter a reject           X                           X
                                   code.
Source: Our research and interviews with IRS officials.

E-Help Desk assistors access the Electronic Automated Retrieval System, which provides a
detailed explanation for each reject code. These assistors also have access to the E-Help
Solutions System that provides information to assist customers in correcting the top 11 reject
conditions. Assistors answering calls on the Practitioner Priority Service and the Toll-Free

9
 This cost estimate was included in the 2007 Taxpayer Assistance Blueprint Phase 2 Report.
10
  Amount spent was calculated by multiplying 154,986 preparers assisted in Calendar Year 2007 by the $19.46 cost
per call. See Appendix IV for details.
                                                                                                        Page 7
                       A Self-Assistance Option Would Reduce Burden and Costs
                      Associated With Resolving Rejected Electronic Tax Returns



Customer Service Lines have access to both the Automated Publication 1346 System and the
JEEDA System.
We conducted a limited test to determine the process that assistors follow when helping
customers resolve e-file reject conditions. 11 We made nine calls using a scenario involving a
rejected e-filed tax return with two actual reject conditions. For 6 calls, the assistors provided
inconsistent solutions, and for 4 (67 percent) of these 6 calls the assistors suggested filing the tax
returns via paper.
Only 1 of the 4 systems used by assistors contains some information as to how customers can
address the top 11 reject conditions. Development of one system that 1) an assistor, or customer,
could access and 2) contains a detailed explanation for each reject code and the information
needed to correct errors would enable the IRS to eliminate the redundant information included in
its multiple systems. Access to the same information for all assistors would reduce their burden,
reduce costs, and ensure consistency in the information they provide to customers.

A self-assistance option could be provided
The IRS provided us with documentation outlining a system that would provide customers with
self-assistance options to resolve errors in rejected e-filed tax returns. The original request date
for implementation was August 2005. However, because of competing priorities and limited
resources, the system has not been implemented. Although a lack of resources was cited, the
IRS was unable to identify the resources that would be needed to implement such a process,
including the savings that could be achieved.
The existing Automated Publication 1346 System lets IRS assistors enter an e-file reject code
and obtain a detailed explanation of the reject condition. Based on discussions with an IRS
programmer, we believe that this system could be 1) modified to include information about how
to resolve the e-file reject condition and 2) added to IRS.gov as a near-term self-assistance option
for customers.
In the long term, the IRS should focus on providing customers with both a description of the
e-file reject condition and information on how to resolve it. The IRS has been moving to a new
electronic platform to process e-filed tax returns, referred to as the Modernized E-file Program.
IRS officials stated that expansion of the Modernized E-file Program to include individual tax
returns will begin in Fiscal Year 2009 and will be completed by Fiscal Year 2011. The e-file
acknowledgment file that will be generated from the Modernized E-file Program has the
possibility of including a description of the reject conditions and information on how to resolve
them.


11
   Because we were only attempting to gain a perspective of the type of service that customers might receive when
calling the IRS for assistance with a rejected tax return, testing was limited to nine calls--three to each of the IRS
telephone assistance lines.
                                                                                                                Page 8
                    A Self-Assistance Option Would Reduce Burden and Costs
                   Associated With Resolving Rejected Electronic Tax Returns



Recognizing the increased customer service demands associated with the growth in e-file and
other electronic services, the IRS recently established the Electronic Products and Services
Support function within the Wage and Investment Division. A primary objective of this function
is to meet the increasing demands associated with e-file and e-service products and to deliver a
higher level of service and support to preparers who use e-file and electronic services. Providing
a self-assistance option will help the IRS ensure that it continues to deliver a high level of service
and support to customers who participate in e-file.
Management action already taken
The IRS has already taken action in response to our concerns by adding to IRS.gov a
self-assistance option that lists common reject codes along with suggested solutions. This is a
first step toward providing a complete electronic self-assistance option for resolving rejected
e-filed tax returns.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a self-assistance option on IRS.gov that allows customers to
obtain detailed explanations of e-file reject conditions, including the steps to resolve them. To
minimize costs, the Commissioner should consider altering an existing system and/or
coordinating with companies that develop tax software packages that currently offer these
services.
       Management’s Response: IRS management partially agreed with this
       recommendation. For e-file error reject codes 0504, 0679, 0507, 0502, 0500, 0501, 0522,
       0510, 0503, 0506, 0680, 0535, and 0029, a self-assistance option was added to IRS.gov,
       which provides descriptions and suggested solutions. These error reject codes addressed
       through this self-assistance option accounted for 78 percent of the 10.2 million error
       reject codes issued thus far in 2008 and the 81 percent of the 9.9 million error reject
       codes issued during 2007. Management will study the feasibility of adding a more
       comprehensive self-assistance option to IRS.gov that allows customers to obtain detailed
       explanations of e-file reject conditions, including the steps to resolve them. As part of
       this study, they will consider altering an existing system and/or coordinating with tax
       software development companies that currently offer a self-assistance option to their
       customers as described in the recommendation.
Recommendation 2: Develop a business case on the feasibility of providing information in
the e-file acknowledgement file that would allow customers to resolve their reject conditions
once individual tax returns are transitioned to the Modernized E-file Program. The information
provided should include the description of the reject condition and the steps to resolve it.


                                                                                               Page 9
            A Self-Assistance Option Would Reduce Burden and Costs
           Associated With Resolving Rejected Electronic Tax Returns



Management’s Response: IRS management disagreed with this recommendation.
While management agrees that the e-file acknowledgement file should provide
information that would allow customers to resolve their reject conditions, it does not
agree that a business case to determine the feasibility of providing this functionality is
necessary. As the Form 1040 Legacy E-file System transitions to Modernized E-file
Program, the reject codes will be developed in the same fashion as the current
Modernized E-file Program form types. This transition is scheduled for implementation
by September 2009. The Modernized E-file Program provides customers with reject
codes written in plain English and contains a clear and concise explanation of the reject
conditions.
Office of Audit Comment: Although we agree that the Modernized E-file Program
will provide customers with explanations of error reject codes, we disagree with the IRS’
decision to not perform a study as recommended that would assess the feasibility of also
providing in the Modernized E-file Program acknowledgement file steps for customers to
follow when resolving their reject conditions. It is our position that error explanations
alone, no matter how clear and concise, do not consistently communicate the steps
required to correct the error(s).




                                                                                   Page 10
                         A Self-Assistance Option Would Reduce Burden and Costs
                        Associated With Resolving Rejected Electronic Tax Returns



                                                                                       Appendix I

             Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS can improve its service to customers1
when notifying them that it has rejected an e-filed tax return. To accomplish this objective, we:
I.         Determined the process the IRS follows to notify customers of a rejected e-filed tax
           return.
II.        Determined what resources the IRS and software companies provide to customers to
           assist them in addressing problems that caused an e-filed tax return to reject.
           A. Reviewed information contained in the e-file acknowledgement file to assess whether
              it explains how customers can address reject conditions.
           B. Identified and reviewed written and downloadable IRS products that relate to rejected
              e-filed tax returns to determine whether the products contain detailed information that
              explains how customers can address reject conditions.
           C. Reviewed IRS.gov (the public IRS web site) to determine whether it provides
              information that explains how customers can address reject conditions.
           D. Interviewed various IRS officials to identify the toll-free telephone-assisted options
              that the IRS has made available to assist customers in addressing reject conditions.
           E. Contacted three leading e-file software development companies to identify whether
              they provide information to assist customers in addressing reject conditions. From
              the 67 IRS approved tax software development companies, we judgmentally selected
              3 companies based on their prominence in the industry.
III.       Identified notification improvements that can be made and assessed the potential impact
           of these improvements on reducing customer burden and IRS costs.
           A. Contacted representatives of the American Institute of Certified Public Accountants
              to obtain their input on the e-file reject notification process and feedback on ways to
              improve it.
           B. Determined whether the IRS has plans to improve the notification process.
           C. Determined whether the service provided to customers when they are notified of a
              rejected e-filed tax return can be improved and attempted to determine:


1
    See Appendix V for a glossary of terms.
                                                                                               Page 11
         A Self-Assistance Option Would Reduce Burden and Costs
        Associated With Resolving Rejected Electronic Tax Returns



1. The viability of improvement options with respect to cost/benefit, including
   perspective on resulting foregone and added costs.
2. Any cost savings to the IRS resulting from the related reduction in costs currently
   needed to:
    a) Assist transmitters by telephone, including the costs of maintaining the
       various systems relied upon by assistors.
    b) Produce IRS written products to assist transmitters in correcting rejected
       e-filed tax returns.
3. Any burden reduction for customers and the potential increases in the successful
   use of e-file.
    a) Identified the total number of customers who could be affected by improved
       services and an estimate of the time savings they might realize as a result of
       the improved services. For Steps III.C.3.a) – c), the Treasury Inspector
       General for Tax Administration computer specialists extracted data from the
       IRS e-file database. To validate the accuracy of this information, we
       randomly selected 10 of the 7,016 records extracted for validation and
       compared the sampled information to information on the Integrated Data
       Retrieval System.
    b) Identified the potential number of rejected e-filed tax returns ultimately filed
       on paper that might have been successfully e-filed later if IRS service was
       improved. This was done by identifying from our data extract the number
       of rejected e-filed Tax Year 2006 returns for which the Individual Return
       Transaction File showed that the tax return was ultimately filed via paper.
   c)    Identified the number of times each e-filed tax return was rejected by
         determining the number of times the same tax return appeared in our extract.




                                                                               Page 12
                  A Self-Assistance Option Would Reduce Burden and Costs
                 Associated With Resolving Rejected Electronic Tax Returns



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Pam DeSimone, Acting Audit Manager
Robert Howes, Lead Auditor
Sharon Shepherd, Senior Auditor
Mary Keyes, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                   Page 13
                  A Self-Assistance Option Would Reduce Burden and Costs
                 Associated With Resolving Rejected Electronic Tax Returns



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, E-File Systems OS:CIO:AD:SP:E
Director, Electronic Products and Services Support, Wage and Investment Division
SE:W:CAS:EPSS
Director, Electronic Tax Administration, Wage and Investment Division SE:W:ETA
Director, Portal Program Management OS:CIO:ES:SI:PP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Deputy Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP:D
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 14
                         A Self-Assistance Option Would Reduce Burden and Costs
                        Associated With Resolving Rejected Electronic Tax Returns



                                                                                                Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Inefficient Use of Resources – Potential; $15,080,138 spent on toll-free telephone assistance
      to help customers correct errors on e-filed tax returns over 5 years (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS offers toll-free telephone assistance to customers who require help resolving e-filed tax
return reject conditions. It provides three telephone numbers that customers can call to obtain an
explanation of the reject codes: the E-Help Desk, the Practitioner Priority Service, and the
Toll-Free Customer Service Lines.
For the Toll-Free Customer Service and the Practitioner Priority Service Lines, the IRS does not
track telephone calls related to e-file rejects. However, for the Practitioner Priority Service
Program, the IRS tracks the number of times that assistors access the database used by the
assistors when they handle calls related to e-file rejects. For Calendar Year 2007, the IRS
reported that there were 111,412 such accesses. For the same period, the IRS reported that there
were 43,574 e-file reject telephone calls to its E-Help Desk Line. We conservatively concluded
that IRS toll-free telephone assistors handled 154,986 calls related to e-file rejects in Calendar
Year 2007.
The IRS estimated that the cost for a toll-free telephone-assisted contact was $19.46 in Fiscal
Year 2005.1 The IRS noted that this is conservative because the estimate does not include all
facets of the cost, such as upgrades to routing equipment, costs to maintain equipment, and
headquarters support. Therefore, in Calendar Year 2007, the IRS spent $3,016,028
($19.46/call X 154,986 calls) on toll-free telephone assistance related to e-file rejects. Over
5 years, this cost could reach $15,080,138. The amount represents the potential value of
efficiencies that could be gained from our recommendation to implement a self-assistance option
related to e-file rejects.




1
    This cost estimate was included in the 2007 Taxpayer Assistance Blueprint Phase 2 Report.
                                                                                                     Page 15
                   A Self-Assistance Option Would Reduce Burden and Costs
                  Associated With Resolving Rejected Electronic Tax Returns



Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 774,930 customers contacting the IRS by telephone for
    assistance with resolving e-file errors over 5 years (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS offers toll-free telephone assistance to customers who require help resolving e-filed tax
return reject conditions. It provides three telephone numbers that customers can call to obtain an
explanation of the reject codes: the E-Help Desk, the Practitioner Priority Service, and the
Toll-Free Customer Service Lines.
For the Toll-Free Customer Service and the Practitioner Priority Service Lines, the IRS does not
track telephone calls related to e-file rejects. However, for the Practitioner Priority Service
Program, the IRS tracks the number of times that assistors access the database used by the
assistors when they handle calls related to e-file rejects. For Calendar Year 2007, the IRS
reported that there were 111,412 such accesses. For the same period, the IRS reported that there
were 43,574 e-file reject telephone calls to its E-Help Desk Line. We conservatively concluded
that IRS toll-free telephone assistors handled 154,986 calls related to e-file rejects in Calendar
Year 2007.
Therefore, in Calendar year 2007, 154,986 customers could have avoided having to call the IRS
and instead could have more conveniently and quickly accessed the recommended self-assistance
option when resolving e-file reject conditions. Over 5 years, the affected number of customers
could reach 774,930 (154,986 customers/year x 5 years).




                                                                                           Page 16
                  A Self-Assistance Option Would Reduce Burden and Costs
                 Associated With Resolving Rejected Electronic Tax Returns



                                                                                  Appendix V

                              Glossary of Terms

American Institute of         The American Institute of Certified Public Accountants is the
Certified Public              national, professional association of certified public
Accountants                   accountants. It has approximately 350,000 members, including
                              certified public accountants in business and industry, public
                              practice, government, and education; student affiliates; and
                              international associates.
Authorized E-file Providers   Authorized E-file Providers include Electronic Return
                              Originators, Intermediate Service Providers, Transmitters, and
                              Software Developers. Appendix VI provides a detailed
                              description of each.
Computer-Prepared Paper       A computer-prepared paper tax return is one prepared using a
Tax Return                    computer software tax package but submitted to the IRS on
                              paper rather than via electronic filing.
Customers                     Customers are Electronic Return Originators, Intermediate
                              Service Providers, and Transmitters. Appendix VI provides a
                              detailed description of each of these customers.
E-File Acknowledgement        An e-file acknowledgement file is an electronic notification
File                          sent to the customer alerting him or her that an error(s) was
                              identified on the e-filed tax return, causing it to be rejected.
Individual Return             The Individual Return Transaction File is an IRS database
Transaction File              containing personal, tax account, and other information that has
                              been transcribed from tax returns and most related schedules
                              filed by individual taxpayers.
Integrated Data Retrieval     The Integrated Data Retrieval System is the IRS computer
System                        system capable of retrieving or updating stored information. It
                              works in conjunction with a taxpayer’s account records.
IRS Computing Centers         IRS Computing Centers support tax processing and information
                              management through a data processing and telecommunications
                              infrastructure.




                                                                                           Page 17
            A Self-Assistance Option Would Reduce Burden and Costs
           Associated With Resolving Rejected Electronic Tax Returns



Preparer             A preparer is any person who prepares for compensation--or
                     who employs one or more persons to prepare for compensation
                     --any income tax return or claim for refund of income taxes.
                     For purposes of this report, preparers include those involved in
                     tax return preparation offered through volunteer organizations,
                     such as the Volunteer Income Tax Assistance Program.




                                                                               Page 18
                 A Self-Assistance Option Would Reduce Burden and Costs
                Associated With Resolving Rejected Electronic Tax Returns



                                                                              Appendix VI

Customers Who Might Need to Resolve Rejected
           Electronic Tax Returns

Electronic Return        EROs originate the electronic submission of income tax
Originator (ERO)         returns to the IRS. An ERO electronically submits income tax
                         returns that are either prepared by the ERO firm or collected
                         from a taxpayer.

Intermediate Service     An Intermediate Service Provider receives tax return
Providers                information from EROs or from taxpayers who file
                         electronically using a personal computer, modem, and
                         commercial tax preparation software on an Internet site;
                         processes the tax return information; and either forwards the
                         information to a transmitter or sends the information back to
                         the EROs or taxpayers.

Online Filers            Online Filers are taxpayers who use commercial tax return
                         preparation software to prepare their tax returns on computers
                         and file their tax returns electronically.

Software Developers      Software Developers write the e-file programs according to
                         IRS file specifications and record layouts, making IRS e-file
                         and Federal/State e-file possible. The IRS and participating
                         States require that all software pass a series of tests each year.
                         Once approved, this software may be sold and used by EROs.

Transmitters             Once a return is prepared, the income tax return data are sent
                         to the IRS by a Transmitter. The Transmitter must have
                         software and modems that allow it to connect with IRS
                         computers. An ERO or Intermediate Service Provider may
                         also apply to be a Transmitter and transmit return data, or it
                         may contract with an accepted third-party Transmitter that will
                         transmit the data for it.




                                                                                        Page 19
      A Self-Assistance Option Would Reduce Burden and Costs
     Associated With Resolving Rejected Electronic Tax Returns



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 20
 A Self-Assistance Option Would Reduce Burden and Costs
Associated With Resolving Rejected Electronic Tax Returns




                                                      Page 21
 A Self-Assistance Option Would Reduce Burden and Costs
Associated With Resolving Rejected Electronic Tax Returns




                                                      Page 22
